Highlights
Table of Contents




                    Highway
                    Contract Route
                    Electronic
                    Payment
Findings




                    Process
Recommendations




                    Management
                    Advisory Report
                    Report Number
                    SM-MA-14-006

                    September 30, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                                          Background                                                       What The OIG Found
                                                                        Highway Contract Routes (HCRs) transport mail between post
                                                                                                                                         The Postal Service still needs to improve oversight of its HCR
                                                                        offices or other designated points and make up the largest
                                                                                                                                         electronic payment process. It will not meet its 2014 goal of
                                                                        group of transportation contracts in the U.S. Postal Service.
                     The Postal Service paid nearly                     Annual (regular) HCR contracts are competitively awarded         implementing a process to pay HCR suppliers for actual miles
                                                                                                                                         driven due to delays in piloting a system to track transportation
Findings




                                                                        and generally have fixed prices, with automatic prorated
                          $2.15 billion annually for                                                                                     movement. Management encountered issues surrounding the
                                                                        monthly recurring payments. Between April 1, 2012, and
                                                                                                                                         supplier payment process and incorporating operational data
                          20,420 contracts between                      March 31, 2014, the Postal Service paid about $4.3 billion for
                                                                                                                                         and service requirements into the pilot. Also, they have not
                                                                        20,420 HCR contracts excluding voyager card fuel payments.
                    April 1, 2012, and March 31, 2014,                                                                                   identified software that will integrate HCR tracking with
                                                                                                                                         supplier payments.
                                                                        We conducted this review as a follow-up to our
                    without verifying that payments
                                                                        September 30, 2010, audit, Certification for Electronic
                                                                                                                                         Management indicated they have no immediate plans to change
                    matched the services performed.                     Payments (Report Number CA-AR-10-006). In that audit, we
Recommendations




                                                                                                                                         the current payment process and, as a result, contracting
                                                                        found Postal Service officials did not certify about
                                                                                                                                         officers still rely on a “pay and chase” process. This process
                                                                        $4.8 billion in annual HCR payments from April 1, 2008,
                                                                                                                                         requires administrative officials to manually submit notifications
                                                                        to March 31, 2010, due to insufficient oversight of the
                                                                                                                                         of payment adjustments for omitted services after payments
                                                                        certification and electronic payment process. We recommended
                                                                                                                                         have been made, which puts the Postal Service at an increased
                                                                        management implement procedures to receive invoices for
                                                                                                                                         risk of issuing payments for services not rendered.
                                                                        annual HCR services and verify that services were rendered
                                                                        prior to payment. Management did not agree with our
                                                                                                                                         Without matching planned and actual HCR services performed
                                                                        recommendation but indicated that by October 2014, they would
                                                                                                                                         prior to payment, the Postal Service cannot guarantee the
                                                                        implement a process to pay HCR suppliers based on actual
                                                                                                                                         amount paid to suppliers is accurate. The Postal Service paid
                                                                        miles driven.
                                                                                                                                         nearly $2.15 billion annually for 20,420 contracts between
Appendices




                                                                                                                                         April 1, 2012, and March 31, 2014, without verifying that
                                                                        Our objectives for this review were to evaluate whether
                                                                        the Postal Service has improved oversight of its annual
                                                                        HCR electronic payment process and to identify industry
                                                                        best practices.
                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                 Print                                       1
Highlights
Table of Contents




                                                                        payments matched the services performed. We did not assess          What The OIG Recommended
                                                                        the impact of the $2.15 billion on the Postal Service’s financial
                                                                                                                                            We recommended management revise and implement a plan to
                                                                        statements. This amount represents the annual value of the
                                                                                                                                            integrate HCR tracking and payment technology in the Postal
                                                                        HCR contracts in our review and does not necessarily indicate
                                                                                                                                            Service’s HCR payment process and take into account industry
                                                                        an actual loss to the Postal Service.
                                                                                                                                            best practices when doing so.
Findings




                                                                        We benchmarked against 10 organizations that have integrated
                                                                        payment systems and identified best practices such as the
                                                                        use of global positioning systems and other software and
                                                                        processes that match actual mileage to accounting system
                                                                        data. These processes could help improve oversight of the
                                                                        HCR payment process.
Recommendations
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                  Print                                2
Highlights
                    Transmittal Letter



                                                                        September 30, 2014	
Table of Contents




                                                                        MEMORANDUM FOR:	           SUSAN M. BROWNELL
                                                                        				                       VICE PRESIDENT, SUPPLY MANAGEMENT

                                                                        				                       DAVID E. WILLIAMS
                                                                        				                       VICE PRESIDENT, NETWORK OPERATIONS




                                                                        				

                                                                        FROM: 			                  John E. Cihota
Findings




                                                                        				                       Deputy Assistant Inspector General
                                                                        				                        for Finance and Supply Management

                                                                        SUBJECT: 			               Management Advisory Report – Highway Contract
                                                                        				                       Route Electronic Payment Process
                                                                        				                       (Report Number SM-MA-14-006)
Recommendations




                                                                        This report presents the results of our review of the U.S. Postal Service’s Highway
                                                                        Contract Route Electronic Payment Process (Project Number 14YG011SM000).

                                                                        We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                        questions or need additional information, please contact Keshia L. Trafton, director,
                                                                        Supply Management and Facilities, or me at 703-248-2100.

                                                                        Attachment

                                                                        cc: Corporate Audit and Response Management
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                            Print               3
Highlights
                    Table of Contents                                   Cover
                                                                        Highlights.......................................................................................................1
                                                                         Background.................................................................................................1
                                                                         What The OIG Found..................................................................................1
                                                                         What The OIG Recommended...................................................................2
                                                                        Transmittal Letter...........................................................................................3
                                                                        Findings.........................................................................................................5
Table of Contents




                                                                         Introduction.................................................................................................5
                                                                         Postal Service Payment Verification Process.............................................6
                                                                         Benchmarked Organizations’ Electronic Payment Processes and
                                                                         Best Practices ............................................................................................6
                                                                        Recommendations......................................................................................10
                                                                         Management’s Comments........................................................................10
                                                                         Evaluation of Management’s Comments..................................................10
                                                                        Appendices..................................................................................................12
                                                                         Appendix A: Additional Information...........................................................13
                                                                           Background ...........................................................................................13
Findings




                                                                           Objectives, Scope, and Methodology.....................................................13
                                                                           Prior Audit Coverage..............................................................................15
                                                                         Appendix B: Management’s Comments....................................................16
                                                                        Contact Information.....................................................................................18
Recommendations
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                  Print                      4
Highlights
                    Findings                                            Introduction
                                                                        This report presents the results of our self-initiated review of the U.S. Postal Service’s Highway Contract Route (HCR) Electronic
                                                                        Payment Process (Project Number 14YG011SM000). Our objectives for this review were to evaluate whether the Postal Service
                                                                        has improved oversight of its annual HCR electronic payment process and to identify industry best practices. See Appendix A for
                                                                        additional information about this review.

                                                                        HCRs transport mail between post offices or other designated points and make up the largest single group of transportation
                                                                        service contracts in the Postal Service. Annual HCR contracts are competitively awarded and generally have fixed prices, with
Table of Contents




                                                                        automatic prorated monthly recurring payments. Between April 1, 2012, and March 31, 2014, the Postal Service issued $4.3 billion
                                                                        in payments for 20,420 annual HCR contracts.

                       The Postal Service still needs                   The U.S. Postal Service Office of Inspector General (OIG) conducted this review to follow up on the Certification for Electronic
                          to improve oversight of its                   Payments audit.1 In that audit, we found that Postal Service officials did not certify about $4.8 billion in electronic payments from
                                                                        April 1, 2008, to March 31, 2010, for HCRs because of insufficient oversight of the certification and electronic payment process.
                           HCR electronic payment                       We recommended management implement procedures for receiving invoices for annual HCR services and verify that services
                                                                        were rendered prior to payment. Management did not agree with all of the recommendations but, subsequently, indicated that they
                            process. Postal Service                     were developing a strategy to use electronic processes that match HCR payments to actual miles driven.
                           Supply Management will
                                                                        Conclusion
                           not meet its 2014 goal of
Findings




                                                                        The Postal Service still needs to improve oversight of its HCR electronic payment process. Postal Service Supply Management
                         implementing a process to
                                                                        will not meet its 2014 goal of implementing a process to pay HCR suppliers based on actual miles driven. The Postal Service
                        pay HCR suppliers based on                      experienced delays in piloting a real-time tracking system to record transportation movements, which should have been completed
                                                                        in May 2013. These delays included issues with identifying supplier payment methods and incorporating operational data and
                                actual miles driven.                    service requirements into the pilot. Also, management has not identified software to support integrating HCR tracking with
                                                                        supplier payments.
Recommendations




                                                                        Management indicated they have no immediate plans to change the current payment process and, as a result, contracting officers
                                                                        (CO) still rely on a “pay and chase” process. This process requires administrative officials (AO) to manually submit notifications of
                                                                        payment adjustments for omitted services after payments have been made, which puts the Postal Service at an increased risk of
                                                                        issuing payments for services not rendered.

                                                                        If pay is not matched with actual mileage, there is a continued risk that supplier payments are not accurate. The Postal Service
                                                                        paid nearly $2.15 billion annually for 20,420 contracts between April 1, 2012, and March 31, 2014, without verifying that payments
                                                                        matched the services performed. We did not assess the impact of the $2.15 billion on the Postal Service’s financial statements.
                                                                        This amount represents the annual value of the HCR contracts in our review and does not necessarily indicate an actual loss to
                                                                        the Postal Service.
Appendices




                                                                        We benchmarked the Postal Service against 10 organizations that have integrated payment systems and identified best
                                                                        practices, such as the use of global positioning systems (GPS) and other software and processes that match actual mileage


                                                                        1	   Report Number CA-AR-10-006, dated September 30, 2010.
                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                    Print                                    5
Highlights                                                              to accounting system data. Implementing these capabilities could help improve the Postal Service’s oversight of its current
                            Between April 2012 and                      HCR payment process.
                             March 2014, the Postal
                                                                        Postal Service Payment Verification Process
                           Service made $4.3 billion
                                                                        The Postal Service still needs to improve its oversight of the payment process for annual HCR contracts. Between April 2012 and
                          in unsupported automated                      March 2014, the Postal Service made $4,274,790,532 in unsupported automated payments for 20,420 HCR contracts because
                                                                        there is no requirement to verify that payments were accurate based on the suppliers’ actual mileage. The Postal Service did not
                           payments for 20,420 HCR                      meet its goal of completing a web-based pilot to test real-time tracking of transportation movements through the Postal Service
Table of Contents




                                                                        network by May 2013. Contingent upon the success and adoption of the pilot, management had planned to integrate the HCR
                          contracts because there is                    tracking technology into the payment process to pay HCR suppliers based on actual mileage driven.
                        no requirement to verify that
                                                                        Management initiated the HCR tracking pilot in August 2014; however, because of the complexities and delays of this initiative,
                            payments were accurate                      the Postal Service has not identified software needed to integrate the HCR tracking and payment systems. These delays included
                                                                        issues with identifying supplier payment methods and incorporating operational data and service requirements into the pilot.
                            based on the suppliers’                     Management indicated they have no immediate plans to change the current payment process and, as a result, COs rely on a
                                    actual mileage.                     “pay and chase” process. This process requires AOs to manually submit notifications of payment adjustments for omitted services
                                                                        after payments have been made, which puts the Postal Service at an increased risk of issuing payments for services not rendered.
                                                                        Without matching planned and actual HCR services performed prior to payment, the Postal Service cannot guarantee the amount
                                                                        paid to suppliers is accurate. For example, COs notified the OIG Office of Investigations (OI) of at least two instances where the
                                                                        Postal Service continued to pay HCR suppliers for over a year for services not rendered. The OI determined that the
Findings




                                                                        Postal Service overpaid the two suppliers about $114,160.

                                                                        Benchmarked Organizations’ Electronic Payment Processes and Best Practices
                         We identified best practices
                                                                        The Postal Service can use technology to improve its HCR payment structure and approach. The planned pilot to track HCR
                            the Postal Service could                    movement is a good start; however, to completely automate the electronic payment and verification process, the Postal Service
                                                                        needs to interface the transportation, contract, and payment systems.
                               adopt in the areas of
Recommendations




                            management oversight,                       We benchmarked the Postal Service’s current payment process against 10 organizations, including direct competitors; a foreign
                                                                        post; and retail, food and beverage, and transportation and logistics companies. We identified best practices the Postal Service
                          technology, and electronic                    could adopt in the areas of management oversight, technology, and electronic processes as part of its initiatives to track and
                                                                        confirm HCR movement prior to paying suppliers.
                            processes as part of its
                              initiatives to track and                  Under the Postal Service’s current process, the CO monitors the suppliers’ performance to ensure that they fulfill all of the
                                                                        contract requirements. The CO sets up the contracts in the Transportation Contract Support System (TCSS)2 and appoints an
                       confirm HCR movement prior                       AO to monitor daily contract performance. The Postal Service pays suppliers automatically every month through its Accounts
                                                                        Payable Excellence (APEX)3 system. Payment adjustments are made on an exception basis. AOs are required to notify COs of
                                to paying suppliers.                    performance issues such as suppliers not arriving for their scheduled routes. If a supplier does not fulfill the terms of his or her
                                                                        contract, the AO must complete a Contract Route Irregularity Report4 and forward it to the CO. The CO reviews the report to
Appendices




                                                                        2	   Oracle web-based application used to manage transportation contracts and related activities. TCSS allows COs to solicit awards and administer transportation contracts.  
                                                                        3	   A commercial off-the-shelf system that automates contract payments.
                                                                        4	   Postal Service Form 5500, Contract Route Irregularity Report, dated September 2008.
                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                                               Print                                               6
Highlights                                                              determine the appropriate action to take, such as adjusting payments or routes. The Postal Service continues to pay suppliers
                                                                        monthly while adjustments are pending. Figure 1 illustrates the Postal Service’s current HCR process.

                                                                        Figure 1: Postal Service HCR Process


                                                                                   Contract Set Up                 Delivery Service             Payment                     Payment
                                                                                                                                                                           Adjustments
Table of Contents




                                                                                                                                                                                RECEIPT


                        Benchmarked organizations
                             use electronic tracking
                        processes such as scanning
                          or an onboard mechanism
                          to verify actual mileage or
                                                                               Hover over boxes for more information.
                         work completed. Electronic
                         data submissions go to the
Findings




                                                                        Source: Postal Service Accounts Payable Cycle memo.
                            accounting department,
                                                                        Benchmarked organizations use electronic tracking processes such as scanning or an onboard mechanism to verify actual
                         which verifies them against                    mileage or work completed. Electronic data submissions go to the accounting department, which verifies them against accounting
                                                                        data to ensure that services were rendered and payment information is accurate before issuing electronic payments. If electronic
                          accounting data to ensure                     data submissions differ from accounting data, payments are not released until the responsible supervisor reviews and approves
                                                                        the adjustments. Figure 2 is an illustration of the overall payment process for the benchmarked private sector companies.
                         that services were rendered
Recommendations




                           and payment information                      Figure 2. Sample Private Sector Process Overview

                          is accurate before issuing                              Transportation                    Delivery Service        Payment Amount                    Payment
                                                                                Management System                                             Verification
                               electronic payments.
                                                                                                                                                  RECEIPT
Appendices




                                                                        Source: OIG benchmark results.




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                Print                                   7
Highlights                                                              Table 1 summarizes private industry electronic payment processes for the 10 organizations we benchmarked.

                                                                        Table 1: Benchmarked Organizations’ Electronic Payment Processes

                                                                         Benchmarked Organizations                              Electronic Process Snapshot
                                                                                                                                Equips carrier trucks with a kiosk system that has location tracking capabilities
                                                                         Company A                                              to easily track and report mileage and driver activity. Uses TRANSFLO5 portal to
                                                                         (Transportation and Logistics)                         electronically exchange billing documents and verify delivery completion. Billing
                                                                                                                                department works with Transflo to confirm and verify that payment amounts match
Table of Contents




                                                                                                                                deliveries completed and execute weekly payment settlements.
                                                                                                                                Uses a national transportation team to oversee all contracted drivers. Tracks
                                                                                                                                contactor performance through a Scan-to-Vehicle technology solution that
                                                                         Company B                                              monitors performance against assigned routes. After verification, the national
                                                                         (Parcel)                                               transportation team distributes money through an automated payment system
                                                                                                                                directly to the contractor’s bank account for both national and regional contractors.
                                                                                                                                Route mileage and rates are pre-determined using PCMiler6 and loaded into
                                                                                                                                a routing guide contained in the Oracle Transportation Management7 (“OTM”)
                                                                         Company C                                              platform. Load assignments are electronically issued through the OTM platform
                                                                         (Food and Beverage)                                    where carriers can accept or reject the assignment. Integration of the OTM
                                                                                                                                platform with the electronic data interchange platform and the product supply
                                                                                                                                platform provides the framework for the payment issuance and control process.
                                                                                                                                Brought all e-payment processes in-house to limit costs and increase owner
Findings




                                                                                                                                operator (contracted workers/suppliers) accountability standards. Uses a driver
                                                                         Company D                                              manager8 program to manage and verify labor and approve payments for all owner
                                                                         (Transportation and Logistics)                         operators. Owner operators check-in to TRANSFLO9 scanners at fueling stations
                                                                                                                                in the field to monitor progress toward assigned route and to communicate
                                                                                                                                productivity to driver managers.
                                                                                                                                Pays long-distance contractors per mile based on a rate, route, and timeline stated
                                                                                                                                during contract negotiations. Unlike long-distance contractors, local contractors
                                                                         Company E                                              are paid per package moved and facility visited. Local contractors use a hand-held
                                                                         (Parcel)                                               scanner to keep track of their labor information, which ultimately determines
Recommendations




                                                                                                                                their payment.
                                                                                                                                Rate calculations vary based on use of the mileage-based or the percentage-
                                                                                                                                based payment structure. An in-house transport management program enables
                                                                         Company F                                              carriers to select their own route schedules based on timing and rate payment.
                                                                         (Transportation and Logistics)                         Billing documents are uploaded electronically through TRANSFLO upon delivery
                                                                                                                                to facilitate weekly settlements.
Appendices




                                                                        5	   Industry-leading document management and workflow solution that efficiently processes and stores, and quickly retrieves critical business documents such as proof
                                                                             of delivery, bills of lading, packing lists, receipts, employment applications, and accident reports.
                                                                        6	   Mileage tool calculator used to minimize costs while using the safest, most cost-effective routing for vehicles and shipments.
                                                                        7	   A suite of Oracle-based systems used to support all aspects of planning, execution, and freight payment for both shippers and logistics service providers.
                                                                        8	   Supervises the contracted workers (owner operators/suppliers) hired to perform transportation service.
                                                                        9	   TRANSFLO Express® is available now at more than 1,000 truck stops throughout the U.S. and Canada and allows for immediate processing of billing, verification,
                                                                             and payment.

                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                                              Print                                              8
Highlights
                                                                         Benchmarked Organizations                               Electronic Process Snapshot
                                                                                                                                 Uses a driver manager program to manage and verify labor and approve
                                                                                                                                 payments for all owner operators. Driver managers leverage on-board technology
                                                                         Company G                                               to verify that work assigned matches work completed in the field to ensure proper
                                                                         (Transportation and Logistics)                          payment information. Upon receiving approval from driver managers, the payroll
                                                                                                                                 team distributes payments to owner operators via direct deposit to their bank
                                                                                                                                 account or to a company-issued debit card.
                                                                                                                                 Uses a third-party fleet manager program10 to manage and verify labor and
                                                                                                                                 approve payments for all owner operators. Installed GPS on vehicles to allow
                                                                         Company H
Table of Contents




                                                                                                                                 third-party fleet managers to track a contractor’s performance in the field against
                                                                         (Parcel)                                                the assigned workload/route. Pays contractors per mile rather than per package
                                                                                                                                 moved and facility visited.
                                                                                                                                 Uses a freight third-party service team to verify that contractor work in the field
                                                                         Company I                                               matches originally assigned task. Created an internal transportation management
                                                                         (Retail)                                                system to help track contractor performance on the road and at both the origin
                                                                                                                                 and destination locations. Outsources the actual payment process.

                          Leveraging data to ensure                                                                              Distributes payment to owner operators on a weekly basis via a debit card. The
                                                                         Company J                                               settlement department verifies the owner operator has picked up his or her
                                                                         (Transportation and Logistics)                          assigned load at the origin and delivered it to the final destination in the allotted
                             work is completed and                                                                               period prior to distributing payments.
                              payment amounts are
                                                                        Source: OIG analysis of private industry contractor electronic payment processes.	

                         accurate will likely improve
Findings




                                                                        Our analysis provides the Postal Service with multiple methods to track, reconcile, and make payments based on services
                                                                        rendered. Leveraging data to ensure work is completed and payment amounts are accurate will likely improve the Postal Service’s
                       the Postal Service’s ability to                  ability to manage HCRs. The Postal Service will be better equipped to issue payments in line with completed work and increase
                                    manage HCRs.                        both internal and supplier accountability.
Recommendations
Appendices




                                                                        10	 Monitors trips through a GPS tracking tool that aggregates miles traveled, fuel usage, and vehicle maintenance on one interface, then reconciles the miles traveled to the
                                                                            agreed upon trip and determines the actual pay.
                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                                                Print                                                9
Highlights
                    Recommendations                                     We recommend the vice president, Supply Management, in coordination with the vice president, Network Operations:

                                                                        1.	 Revise and implement a plan to integrate Highway Contract Route (HCR) tracking and payment technology to verify HCR
                                                                            services were rendered prior to payment.

                       We recommend management                          2.	 Explore the use of identified best practices to integrate Highway Contract Route (HCR) tracking and payment technology within
                                                                            the Postal Service HCR payment process to ensure the Postal Service pays suppliers based on services rendered.
                        revise and implement a plan
                                                                        Management’s Comments
Table of Contents




                           to integrate HCR tracking
                                                                        Management did not agree with all the findings, recommendations, and monetary impact. Management stated that changing the
                         and payment technology in
                                                                        current process to manually verify services are performed prior to payment would result in late payments, prompt payment interest
                           the Postal Service’s HCR                     charges, and performance problems. Management also stated the Postal Service uses a primarily manual process to monitor
                                                                        supplier performance and to identify adjustments on an exception basis.
                          payment process and take
                                                                        They further stated while an ideal control structure includes preventative and detective controls, the Postal Service has detective
                          into account industry best
                                                                        controls to examine contract set-up, delivery service, payment, and payment adjustments and have adequate assurance that HCR
                           practices when doing so.                     payments and payment adjustments are fairly stated. Consequently, management stated it did not seem reasonable that the entire
                                                                        population of HCR payments is unsupported questioned costs without considering that the Postal Service is contractually obligated
                                                                        to make payments for services rendered and for which a control structure exists to support such payments.
Findings




                                                                        Regarding recommendation 1, management partially agreed and stated they will continue to explore automated tracking and
                                                                        payment technologies that provide assurance that they receive HCR services. Management could not guarantee that verification
                                                                        of services will be made prior to payment, but they will develop and implement a plan to integrate a technology solution, subject to
                                                                        business case approval and the availability of funds. The target completion date is September 30, 2015.

                                                                        Regarding recommendation 2, management agreed and stated they will consider the best practices identified, and they will
                                                                        conduct additional market research to identify other best practices to integrate HCR service tracking and payment technologies.
Recommendations




                                                                        They also stated they would explore prudent and cost effective opportunities to improve their current process. The target
                                                                        completion date is June 30, 2015.

                                                                        See Appendix B for management’s comments, in their entirety.

                                                                        Evaluation of Management’s Comments
                                                                        The OIG considers management’s comments responsive to recommendation 2 and corrective actions should resolve the issues
                                                                        identified in the report. The OIG considers management’s comments to recommendation 1 partially responsive.

                                                                        The OIG agrees with management that manually verifying HCR services were performed is not practical. We did not recommend
                                                                        that management implement a manual process but that they integrate HCR tracking and payment technology to verify HCR
Appendices




                                                                        services were rendered prior to payment. Further, we did not question whether the Postal Service’s detective controls provide
                                                                        adequate assurance that HCR payments are fairly stated, as noted in management’s comments. We did not conduct this audit
                                                                        to determine whether the payments were fairly stated. Fairly stated is a specific term used in financial statements to ensure the
                                                                        information in the statements is not materially misstated. This performance audit was designed to evaluate whether the
                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                   Print                                  10
Highlights                                                              Postal Service had improved its oversight of its annual HCR electronic payments to ensure the amounts paid to suppliers were
                                                                        accurate and to reduce the risk of improper payments (for example, issuing payments for services not rendered).

                                                                        Regarding the monetary impact, management stated it did not seem reasonable that the entire population of HCR payments is
                                                                        unsupported questioned costs without considering that the Postal Service is contractually obligated to make payments for services
                                                                        rendered and for which a control structure exists to support such payments. We are claiming unsupported questioned costs for
                                                                        all HCR payments because management has not improved their processes and continues to issue payments without verifying
                                                                        payments matched the services performed.
Table of Contents




                                                                        As management stated, the Postal Service uses a primarily manual process to monitor supplier performance and to identify
                                                                        adjustments on an exception basis. Management also stated their detective controls provide assurance that HCR payments and
                                                                        payment adjustments are fairly stated. We reviewed these control requirements and determined they do not include testing by the
                                                                        Postal Service as to whether adjustments to HCR electronic payments for services not rendered are properly identified.

                                                                        Regarding recommendation 1, implementing a plan to integrate a technology solution that provides assurance that HCR services
                                                                        were received should increase the likelihood of identifying services not rendered; however, there is no substitute for the control of
                                                                        verifying that services were provided, as agreed, before payment is made. All 10 companies we benchmarked used technology
                                                                        that validated services prior to issuing payment. The Postal Service should implement similar technology.

                                                                        The OIG considers all recommendations significant, and therefore requires OIG concurrence before closure. Consequently, the
Findings




                                                                        OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                                        Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Recommendations
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                    Print                                   11
Highlights
                    Appendices                                          Appendices..................................................................................................12
                                                                         Appendix A: Additional Information...........................................................13
                                                                          Background ...........................................................................................13
                          Click on the appendix title                     Objectives, Scope, and Methodology.....................................................13
                                                                          Prior Audit Coverage..............................................................................15
                           to the right to navigate to
                                                                         Appendix B: Management’s Comments....................................................16
                               the section content.
Table of Contents
Findings
Recommendations
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                               Print                     12
Highlights          Appendix A:                                         Background
                    Additional Information                              HCRs provide for the transport of mail between post offices or other designated points where mail is received or dispatched and
                                                                        make up the largest single group of Postal Service transportation service contracts, with 9,990 contracted routes nationwide as
                                                                        of fiscal year 2013. Annual HCR contracts are generally competitively awarded, normally for a term of 4 years, and renewable by
                                                                        mutual agreement between the supplier and the Postal Service. Between April 1, 2012, and March 31, 2014, the Postal Service
                                                                        paid about $2.15 billion annually for 20,420 HCR contracts, excluding voyager card fuel purchases.

                                                                        As of May 2014, there were 15 COs overseeing the roughly 9,990 HCR contract routes. The CO is responsible for monitoring
Table of Contents




                                                                        a supplier’s performance. The CO appoints an AO, who is generally the postmaster or manager of the facility where the HCR
                                                                        originates. AOs are responsible for ensuring suppliers comply with operational requirements and are required to notify COs of
                                                                        performance issues, such as a supplier not fulfilling the terms of the contract. The CO considers circumstances and past records
                                                                        to determine whether the Postal Service should deduct payments when services are not performed.

                                                                        In our prior audit on Certification for Electronic Payments (Report No. CA‑AR‑10-006, dated September 30, 2010) we found
                                                                        that Postal Service officials did not certify about $4.8 billion in electronic payments for annual rate HCRs because of insufficient
                                                                        oversight of the certification and electronic payment process. We recommended improvements to the Postal Service’s oversight
                                                                        process, such as implementing written procedures for receiving invoices for annual HCR services and verifying that services were
                                                                        rendered prior to payment. Management did not agree with all of the recommendations because the Postal Service does not
                                                                        require invoices for annual HCRs.
Findings




                                                                        During discussions to resolve the audit recommendation, Postal Service Supply Management advised that, they planned to
                                                                        use technology to validate HCR services. Specifically, by May 2013, Postal Service officials had planned to test a real-time
                                                                        web-based tracking and reporting system to track and confirm transportation movements through the Postal Service network.
                                                                        If the test proved successful, management intended to integrate this technology with its transportation payment systems to pay
                                                                        highway contractors based on actual mileage driven.

                                                                        Objectives, Scope, and Methodology
Recommendations




                                                                        Our objectives were to evaluate whether the Postal Service has improved oversight of its annual HCR electronic payment process
                                                                        and to identify industry best practices.
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                   Print                                  13
Highlights                                                              To accomplish our objectives we:

                                                                        ■■ Interviewed Postal Service officials in Network Operations and Supply Management Surface Transportation, and at the
                                                                           St. Louis, MO, Accounting Service Center (ASC)11 to understand the current payment and verification processes for HCRs.

                                                                        ■■ Obtained a universe of HCR contracts and payments made between April 1, 2012, and March 31, 2014.

                                                                        ■■ Reviewed Postal Service HCR accounts payable cycle memos and flowcharts to understand the HCR program and payment
                                                                           and service change request processes.
Table of Contents




                                                                        ■■ Benchmarked the Postal Service against 10 organizations, including direct competitors; foreign posts; and retail, food and
                                                                           beverage, and transportation and logistics organizations, on recurring electronic payment processes, best practices, and
                                                                           industry standards.

                                                                        We conducted this performance review from April through September 2014, in accordance with the Council of the Inspectors
                                                                        General on Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and
                                                                        conclusions with management on September 8, 2014 and included their comments where appropriate.

                                                                        We obtained electronic payment information from APEX. We did not test the controls of this system; however, we reconciled
                                                                        monthly annual rate HCR payments to the TCSS contract data. We found no material differences and determined that the data
Findings




                                                                        were sufficiently reliable for the purposes of this report.

                                                                         
Recommendations
Appendices




                                                                        11	 The ASC makes payments for service performed after the CO sends them a certified copy of the contract.
                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                                     Print              14
Highlights                                                              Prior Audit Coverage
                                                                        Report Title                             Report Number                    Final Report Date                 Monetary Impact
                                                                        Global Positioning System
                                                                        Technology for Highway                    NL-AR-12-009                        09/21/2012                        $1,678,650
                                                                        Contract Routes
                                                                        Report Results: The GPS program captured limited data and did not provide useful reports for highway transportation route
                                                                        management. Consequently, the Postal Service was not using the program, which cost at least $1.6 million. Further, the program
                                                                        could be expanded to include additional routes, more reports that are actionable, data analytics, routing and fuel optimization
Table of Contents




                                                                        information, and improved integration with existing Postal Service systems for enhanced transportation management. We
                                                                        recommended the Postal Service improve its GPS functionality by updating and reinforcing policies and procedures; improving the
                                                                        monitoring and validation process to ensure supplier compliance; and reviewing and updating standard system reports to facilitate
                                                                        monitoring of supplier compliance and performance. We also recommended adding more HCRs and reporting capabilities and
                                                                        exploring an end-to-end GPS platform with full-range functionality. Management agreed with all of our recommendations.
                                                                        Survey of System Users of the
                                                                        Global Positioning System for             NL-MA-12-001                        08/14/2012                           None
                                                                        Highway Contract Routes
                                                                        Report Results: This survey found that about 93 percent of authorized users in the field do not use the GPS to track mail, which was
                                                                        the primary intent of the program. Additionally, only about 10 percent of the survey respondents indicated they used HCR tracking
                                                                        data to assess supplier performance. Respondents further indicated that they did not receive adequate training or communication
                                                                        on their defined roles and responsibilities. Several respondents also remarked that the HCR Tracking Module could potentially be
                                                                        a useful tool. But due to difficulty in obtaining accurate and complete data, the module was not used for ongoing monitoring and
                                                                        tracking to ensure compliance. We did not make recommendations because the intent of this survey was to communicate to Postal
Findings




                                                                        Service management the insights, comments, and concerns of the system’s users.
                                                                        Certification Process for
                                                                        Electronic Payments                       CA-AR-10-006                        09/30/2010                      $5,580,067,649

                                                                        Report Results: We found that the Postal Service made approximately $5.6 billion in electronic payments from April 1, 2008, to
                                                                        March 31, 2010, for various transportation, utility, and telecommunications contracts. These payments included $4.8 billion in annual
                                                                        rate HCR services managed by the Surface Transportation Category Management Center, approximately $666 million in utility
                                                                        services, and approximately $158 million in telecommunication services. Two contractors, Energy United and Profit Line, processed
                                                                        and paid these utility and telecommunication bills on behalf of the Postal Service. We recommended developing a mechanism
Recommendations




                                                                        to monitor receipt and certification of HCR invoices; developing and implementing written procedures for reviewing annual HCR
                                                                        invoices prior to payment; and having contracting officers oversee all HCR payments in APEX. Management did not agree with our
                                                                        recommendation but agreed to develop and implement a plan to validate HCR services.
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                                    Print                                   15
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                        Print   16
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                        Print   17
Highlights
Table of Contents
Findings




                                                                           Contact us via our Hotline and FOIA forms, follow us on social
                                                                        networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                               or abuse. Stay informed.
Recommendations




                                                                                              1735 North Lynn Street
                                                                                             Arlington, VA 22209-2020
                                                                                                   (703) 248-2100
Appendices




                    Highway Contract Route Electronic Payment Process
                    Report Number SM-MA-14-006
                                                                                                                                                 Print   18
